October 10, 2008

GARY C. REBLIN
VICE PRESIDENT, EXPEDITED MAIL

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

JORDAN M. SMALL
VICE PRESIDENT, DELIVERY OPERATIONS

SUBJECT: Audit Report – Shortpaid Postage – Information-Based Indicia Priority Mail
         (Report Number MS-AR-09-001)

This report presents the results of our self-initiated review of shortpaid postage on
Information-Based Indicia (IBI) Priority Mail® (Project Number 08RG021MS000). The
audit covered xxxxxxxxxxx IBI postage only.1 Our objective was to determine whether
controls are adequate to detect shortpaid and unpaid postage on IBI Priority Mail.2 This
audit addresses operational risk to the U.S. Postal Service. Click here to go to
Appendix A for additional information about this audit.

Conclusion

Overall, controls were not adequate to reasonably ensure the Postal Service detects
and collects shortpaid and unpaid postage on IBI Priority Mail. Xxxxxxxxx xxx, xxxx
xxxxxx xxxx xx xxxxxxxxx, xxxx xxx xxxxxxxx xxxx xxxxx xxxxxxxxx, xxxxxxxx xxxxxxx.
Thus, the Postal Service is at risk of revenue loss and fraud. Our audit identified $41.4
million in unrecoverable revenue3 and $55.2 million in recoverable revenue4 resulting
from shortpaid postage on IBI Priority Mail. We will report this monetary impact in our
Semiannual Report to Congress.

Controls to Detect Insufficient Postage on IBI Priority Mail Need Strengthening

XX Xxxxxxx™ xx xxxxxx xxxx xx xxxxxxxxx, xxxx XXX Xxxxxxxx Xxxx xxxx xxxxxxxxx,
xxxxxx, xx xxxxxxxxxxx xxxxxxxx. Xxxx xxxxxxxxx xxxxxx xxxxxxx xxx xxxx xxxxxx xxx
xxxxxx xxxxxx, xx xxxxxx xx xxxxxxx xxxxxxxxxx xxx, xx xx Xxxxxxx x. The Postal

1
  Postage that is not “hidden.” The actual postage amount (in dollars or cents) is visible.
2
  These mailpieces carry the Priority Mail® postage mark or stamp, printed using online postage products. They
include a machine-readable two-dimensional barcode, along with human-readable information.
3
  Revenue that should have been recognized for goods delivered or services rendered, but was not recognized due
to the passage of time or other circumstances.
4
  Revenue the agency can collect for goods delivered or services rendered.

        This report has not yet been reviewed for release under FOIA or the Privacy Act.
        Distribution should be limited to those within the Postal Service with a need to
        know
Shortpaid Postage – Information-Based                                                       MS-AR-09-001
 Indicia Priority Mail


Service did not detect insufficient IBI Priority Mail® postage because existing guidance
(manuals, handbooks, Postal Bulletins or standard operating procedures) did not
include detailed instructions, identify roles and responsibilities, or establish needed
checkpoints for identifying and collecting insufficient postage on xxxxxxxxxxx IBI Priority
Mail. Although the Postal Service circulated guidance in the form of service talks on
revenue protection and insufficient and omitted postage in May 2008, some employees
we interviewed did not acknowledge receiving training on identifying and collecting
Shortpaid IBI Priority Mail. Click here to go to Appendix B and see Table 2.

Without specific guidelines and training on identifying and collecting insufficient postage
on IBI Priority Mail, the Postal Service risks significant revenue loss and fraud. Based
on Origin Destination Information System – Revenue, Pieces, and Weights5 (ODIS–
RPW) data, the Postal Service has incurred $41.4 million in unrecoverable revenue loss
from shortpaid and unpaid postage on IBI Priority Mail for fiscal year (FY) 2007 through
FY 2008, quarter 2. We also project the Postal Service could prevent revenue losses
totaling $55.2 million over a period of 2 years if management implements controls to
detect and collect shortpaid and unpaid postage on IBI Priority Mail. Click here to go to
Appendix B for our detailed analysis of this topic.

We recommend the Vice Presidents for Expedited Mail, Retail Operations, and Delivery
Operations coordinate with the Vice President, Network Operations Management, and
the Vice Presidents, Area Operations, to:

1. Identify mail entry points6 at which employees should verify Information-Based
   Indicia (IBI) Priority Mail postage.

2. Update the Domestic Mail Manual (DMM) and other applicable manuals and
   handbooks to establish specific guidelines and assign roles and responsibilities for
   identifying shortpaid postage on IBI Priority Mail, including a procedure for identifying
   counterfeit/duplicate IBI Priority Mail labels at mail entry points.

3. Provide formal training to employees who accept and process IBI Priority Mail
   mailpieces. The training should include specific instructions on identifying and
   collecting shortpaid IBI postage and verifying the validity of IBI Priority Mail labels
   and proper procedures for handling counterfeit labels.

4. Raise the level of awareness and importance regarding revenue protection by
   implementing a national initiative to identify and collect additional postage on
   shortpaid IBI Priority Mail. Educational and awareness materials could include
   visual aids, such as posters depicting the various PC Postage IBI labels, which
   management could hang in post office retail lobbies and back office areas.

5
  The primary probability sampling system used to estimate Postal Service revenue, volume, weight, and transit time.
Management uses the information collected from this system to develop proposals for new Postal Service rates,
assist in budget preparation, conduct management studies, and support management decisions concerning mail flow
and service performance in transportation and operations.
6
  A mail entry point is where mail enters the Postal Service. Examples are collection boxes, retail windows, and
Carrier Pick-Up.


                                                         2
Shortpaid Postage – Information-Based                                MS-AR-09-001
 Indicia Priority Mail



5. Xxxxxxx xxxxxxxxxxx xx xxxxxxx xxxxxx xxxxxxxxxxxxx xx xxxxxxx xxxx xx xxxxxy®
   Xxxx, xxxxxx xxxxxxxxx xxxxxx xxxxxxxxxxx xxxxxx xxxxxxxxxx xxxxxxx, xxx
   xxxxxxxx x xxxxx xxx xxx xxx xxxxxx xxxxxxxxxxxx xxxxxxx. xxxxxxx xxxxxx xx
   xxxxxxxxxxxx xx xxx xxxxxxxx xxxxx xx xxxxxxxx xxxxxxxxx xxxxxxxx.

Management’s Comments

Management agreed with recommendation 2; partially agreed with recommendations 1,
3 and 4; and disagreed with recommendation 5. They also agreed with our monetary
impact. To address recommendation 2, management will update the Postal Operations
Manual to include shortpaid handling processes, and review the DMM and Handbook
M41, City Delivery Carriers Duties and Responsibilities, to determine whether revisions
are required. Regarding recommendation 1, xxxxxxxxxx xxxxxxxxx xxxx xxxxxxxxx xxx
xxxxxx XXX xxxxxxx xx xxx xxxxxx xxxxxx; xxxxxxx, xxxxxxxxx xxxxxxx xx xxxxx xxxxx
xxxxxx xxxxx xxxxxx xxxxxxxxxxx xxxxxxxx. To address recommendations 3 and 4,
management will establish a cross-functional team to revise and reissue a letter on
shortpaid mail and stale meter dates, and provide ongoing messaging through stand-up
talks and the Retail Digest. Additionally, they will update formal training modules
throughout the year. Finally, management disagreed with recommendation 5, stating
that the Xxxxxxxxxxxx xxxxxxx x xxxxxxx xxxxxxxxxx xxxxxxxx xxxxxxxxxxx xxxxxx xx
xxx xxxxxx xxxxxxxxxx xxxxxxx xxxxxxxxxxxx xxxxxxxxxx xxxxxxxxxxxxx xxxxxxx, xxx
xxxxxx xxxxxxxxxxxx xxx xxxxx xxxxxxxxx xx xxxxxxxx xxxxxxxxx xxxxxx xxxxxxxxx xx
xxx xxxxxxxxx xxxxxxx xxxxxxxxxx xxxxxx xxxxxx. Management’s comments, in their
entirety, are included in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1, 2, 3 and 4, and their corrective actions
should resolve the issues identified in the report. However, management’s comments
are only partially responsive to recommendation 5 and will not fully resolve the issues
identified in the report. Xxxxx xxx XXXXXX xxxxxx xx xxxxxxxxx xxxxxxxx xx xxxxx xxx
xxxxxxxxx xxx xxxxxxxxxxxxxxxxxxxxx xxxxxxx, xx xxxx xxxxxxx xxxxxxxxx xxxxx. xxx
Xxxxxx Xxxxxxxxxx Xxxxxxx xx xxxxxxxxxxxxx xxxx XXXXXX xxxxxxxxxxxx, xxx xxx
xxxxxxxxxxxx xxx xxx xxx xx xxxxx. Xxxxxxxxxxx xxxxxxxxxx xxxxxx xxxxxxxx xxxxx xx
xxxxxxxxx xxxxxxx xxxx xxxxxxxxxxxxxxxxxxxxx xxx xxxxxxxxx xxxxx. xx xxxxx xxxx xx
xxxxxxxxx xxxxxxxx xxxxx xx xxxxxxx; xxxxxxx, xxxxx xxxx x xxxxxxxx xx xx xxxxx xxx
xxxxxxx xxxxxxxxxxx, xxxxxxxxxx xxxxxxxxx xx xxxxxx xx xxxx xxxxxxx xxxx xxxxxxxxx
xxxxxxx xxxxxxx.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the




                                           3
Shortpaid Postage – Information-Based                                  MS-AR-09-001
 Indicia Priority Mail


recommendations can be closed. We view the disagreement on recommendation 5 as
unresolved and plan to pursue it through the formal audit resolution process.

We will report $96.6 million of monetary impact, including $41.4 million in unrecoverable
revenue and $55.2 million in recoverable revenue in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, Director, Sales
and Service, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Robert Bernstock
    Vice Presidents, Area Operations
    Anthony M. Pajunas
    Daniel J. Lord
    Katherine S. Banks




                                            4
Shortpaid Postage – Information-Based                                                    MS-AR-09-001
 Indicia Priority Mail



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service offers several online postage payment options for the convenience
of its customers. Customers may choose Click-N-Ship (a Postal Service product) or an
authorized online postage provider such as eBay (Pitney Bowes), Endicia.com,
Stamps.com, or Pitney Bowes, Inc.7 This audit addresses the use of authorized
providers rather than the Postal Service product.

IBI – A special digital imprint that is valid postage. IBI contains the date, class of mail,
postage amount, originating ZIP Code, and a unique device identification number. It
also has a unique two-dimensional barcode containing ascending and descending
register values, machine-readable mail processing information, and security data for
revenue protection. As a security measure, each printed indicia has a unique digital
signature to help prevent fraud – no two are alike.8

PC Postage – A trademark of the Postal Service for products developed by commercial
vendors that allow a user to print postage from a personal computer in the form of an
IBI. The Postal Service licenses and authorizes approved vendors as official
developers and sellers of the products.

Insufficient Postage – Mail of any class (including mail indicating extra services,
except Express Mail, Registered Mail, and nonmachinable First-Class Mail) that is
received at either the office of mailing or office of address without enough postage. This
mail is marked to show the total (rounded off) deficiency of postage and fees.9

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether controls are adequate to detect shortpaid and
unpaid postage on IBI Priority Mail®. To accomplish our objective we:

•   Reviewed guidance pertaining to shortpaid postage procedures.

•   Judgmentally selected and conducted site visits and telephone interviews at 13 sites
    to review implemented policies and procedures and assess employee knowledge of
    shortpaid IBI controls.

•   Conducted 47 test mailings of IBI Priority Mail from June through August 2008 to
    determine whether shortpaid or unpaid mailpieces would be delivered undetected.



7
  Postal Bulletin, 22218, page 25, October 25, 2007.
8
  Postal Bulletin 22004, page 9, August 12, 1999.
9
  Domestic Mail Manual, Chapter 604, Postage Payment Methods, Section 8, Insufficient or Omitted Postage.


                                                       5
Shortpaid Postage – Information-Based                                  MS-AR-09-001
 Indicia Priority Mail


•   Analyzed ODIS-RPW shortpaid postage data for FYs 2007 and 2008. We relied on
    data from this system to determine the impact of our findings regarding omitted and
    insufficient postage for shortpaid IBI Priority Mail®. We did not directly audit the
    system, but discussed with Postal Service officials the relevance of the data to our
    audit work.

We conducted this audit from June through October 2008 in accordance with generally
accepted government auditing standards and included such tests of internal controls as
we considered necessary under the circumstances. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on September 5, 2008, and included their
comments where appropriate.




                                            6
       Shortpaid Postage – Information-Based                                    MS-AR-09-001
        Indicia Priority Mail



       PRIOR AUDIT COVERAGE

                     Report                                   Monetary
 Report Title       Number             Final Report Date       Impact                Report Results
Click-N-Ship      MS-AR-08-004        March 31, 2008       $37 million in   Management should
Program                                                    unrecoverable    strengthen controls over the
                                                           revenue and      program to detect packages
                                                           $37 million in   mailed with no (or insufficient)
                                                           recoverable      postage or with stale dates.
                                                           revenue          The monetary impact resulted
                                                                            from omitted postage on Click-
                                                                            N-Ship packages.
                                                                            Management agreed with the
                                                                            findings and recommendations
                                                                            to strengthen controls over the
                                                                            program.
Balloon Rate      DR-AR-05-017        September 29, 2005   $24,600 in       The Philadelphia and
and Parcel                                                 potential        Pittsburgh Districts did not
Surcharges                                                 additional       properly assess balloon rate,
                                                           revenue          nonmachinable, and oversized
                                                                            surcharges on 234 of 254
                                                                            packages reviewed. Although
                                                                            management trained retail
                                                                            associates on how to assess
                                                                            surcharges, the training did not
                                                                            include hands-on
                                                                            demonstrations to show retail
                                                                            associates how to properly
                                                                            measure packages.
                                                                            Management stated it planned
                                                                            to develop online training for
                                                                            sales and service associates
                                                                            (SSAs), which would focus
                                                                            entirely on surcharges.
                                                                            Management also stated Point
                                                                            Of Service ONE changes
                                                                            underway would change the
                                                                            way retail associates measure
                                                                            packages.




                                                      7
Shortpaid Postage – Information-Based                                                      MS-AR-09-001
 Indicia Priority Mail


                                APPENDIX B: DETAILED ANALYSIS

Controls to Detect Insufficient Postage on IBI Priority Mail Need Strengthening

XX Xxxxxxx xxxxx xxx xxxx XXX Xxxxxxxx Xxxx® xxxxxxxxxx xxxx xxx xxx xxxxxxxxxxx
xxxxxxx. xxxxxxxxxxxx, xxxxxxxxx xxx xxx xxxxxx xxx xxxxxxx xxxxxxxx xxxxxx xx xx
xxxxxxx xx xx XXX Xxxxxxxx xxxx xxxxxxxxxx xx xxxxxx xxxxxxxxxxxxx. Xx xxxxxx xx
xxxxxx xxxxxxx xxxx Xxxxxxx.xxx xx xxxxxx xxx xxxx xxxxxxxx Xxxxxxxx Xxxx xxxxxxxx
xxxxxx xxx xxxxxx xx Xxxxxxxx Xxxx xxxxxxxxx xxxx xxxxxxxxxxxx xxxxxxx. Xxx xxxx
xxxxxxxx xxxx xxxxxxxxxxx xxxxxxx.

                      Table 1. Shortpaid IBI Priority Test Mailings10
                                    Shortpaid       Shortpaid       Shortpaid
             Method Used for        Mailpieces     Mailpieces      Mailpieces
                  Mailing            Mailed         Detected      Not Detected
                                                         11
          Retail Window                 13              5               8
          Carrier Pick-Up                6              0               6
                                           12            13
          Outside Collection Box        11              1              10
                                                         14
          Inside Post Office            16              1              15
          Collection Box
          Collector Employee             1              0               1
                   Totals               47              7              40

Xx xxx xx Xxxxxxxx Xxxx xxxxxxxxxx xxxxxx, xxxxx xxx xxxxxxxxxxx xxxxxxxx xxxxxx.
Xxxxxxxxx xxxxxxxxx xxx xxxxx xx xxx xxxx xxxxxxxxxx xxxx xxxxxxxxxxx xxxx xxxxxxx
xxxxxxxxx.

These conditions exist because:

     •   Existing guidance (manuals, handbooks, Postal Bulletins or standard operating
         procedures) did not define necessary checkpoints or include detailed instructions
         for identifying and collecting insufficient postage on IBI Priority Mail.

     •   Employees did not receive sufficient training to identify and collect shortpaid
         postage on IBI Priority Mail.




10
   Test mailings included mailings of shortpaid and counterfeit postage.
11
   Four of the five mailpieces were detected by the same SSA and one was detected by another SSA at a different
post office.
12
   One mailpiece was mailed in an outside collection box, but was never received and no additional postage was ever
requested.
13
   One mailpiece dropped in an outside collection box was returned to sender for postage due.
14
   One mailpiece dropped in an inside collection box was returned to sender for postage due.


                                                         8
Shortpaid Postage – Information-Based                                                    MS-AR-09-001
 Indicia Priority Mail


       •   Management did not create and implement policies and procedures to identify
           and process xxxxxxxxxxxxxxxxxxxxxxx xxxxxx for IBI Priority Mail® at mail entry
           points.

To assess employee knowledge of identifying and collecting additional postage on
shortpaid IBI mail, we conducted site visits and telephone interviews at 13 judgmentally
selected sites. At each of the 13 sites, management and personnel were unaware of
written policies, standard operating procedures, or other guidance for identifying and
collecting shortpaid postage for IBI Priority Mail.

We interviewed 14 SSAs, three letter carriers, six clerks, one mailhandler, 16 managers
and supervisors, and one Logistics and Distribution Center (L&DC) specialist (see Table
2).

                Table 2. Management/Employee Interview Response Summary
                                                                                   Managers/
                              Sales and                            Distribution   Supervisors/
                               Service             Letter           Clerks and       L&DC
       Question               Associates          Carriers         Mailhandlers    Specialist           Total
Are there written
policies and
procedures, standard
operating procedures
(SOPs), and other
                                 14 No              3 No              7 No           17 No          41 No
guidance for
identifying and
collecting shortpaid
IBI Priority Mail
postage?

Are random samples
conducted to identify
and collect shortpaid                                                                               3 Yes
IBI postage?                              15                                         3 Yes          14 No
(managers &                  Did Not Ask        Did Not Ask        Did Not Ask
                                                                                     14 No        24 Did Not
supervisors only)                                                                                    Ask




15
     The question was not applicable to the craft employees.


                                                               9
Shortpaid Postage – Information-Based                                                        MS-AR-09-001
 Indicia Priority Mail



                                                                                     Managers/
                           Sales and                           Distribution         Supervisors/
                            Service              Letter         Clerks and             L&DC
       Question            Associates           Carriers       Mailhandlers          Specialists            Total
Are employees
assigned to isolate                                                                                        27 No
and handle shortpaid                    16                                                               14 Did Not
                          Did Not Ask             3 No              7 No                17 No
Priority Mail®                                                                                              Ask
mailpieces?

Is training or are
stand-up talks
                                                                                                           9 Yes
provided to inform
                              6 Yes17                                                                      22 No
employees on how to                             Did Not                                 3 Yes
                               8 No                             Did Not Ask                              10 Did Not
identify and collect                             Ask18                                  14 No
                                                                                                            Ask
shortpaid IBI Priority
Mail?

Have they received                                                                                         4 Yes
any training on                2 Yes                                2 Yes                                  20 No
                                                  3 No                               Did Not Ask
revenue protection?            12 No                                5 No                                 17 Did Not
                                                                                                            Ask
Are there procedures
in place to identify                                                                                       14 No
xxxxxxxxxxx XXX                14 No          Did Not Ask       Did Not Ask          Did Not Ask         27 Did Not
mailpieces?                                                                                                 Ask

Do they follow the
Retail Acceptance
SOPs for Electronic
                                                                                                           6 Yes
Rate Confirmation
                               6 Yes            Did Not                                                     8 No
Services Online                                                 Did Not Ask          Did Not Ask
                               8 No              Ask19                                                   27 Did Not
Labels with or
                                                                                                            Ask
without postage
affixed?




16
   This question was not asked of SSAs and letter carriers because the intent was to determine whether someone
verifies postage after the SSAs accept the package at the retail window.
17
   Six SSAs we interviewed were given a stand-up talk on stealth postage.
18
   This question was not asked of any interviewees who responded “No” to the question "Are employees assigned to
isolate and handle shortpaid Priority Mail mailpieces?”
19
   The question was directed only to the SSAs. Electronic Rate Confirmation Services is part of the retail acceptance
function.


                                                          10
  Shortpaid Postage – Information-Based                                                    MS-AR-09-001
   Indicia Priority Mail



                                                                                    Managers/
                        Sales and                             Distribution         Supervisors/
                         Service            Letter             Clerks and             L&DC
     Question           Associates         Carriers           Mailhandlers          Specialists           Total
 Have they                                                                                               6 Yes
 received stand-           6 Yes                                                                          8 No
                                            Did Not
 up talks on               8 No                               Did Not Ask          Did Not Ask         27 Did Not
                                             Ask20
 stealth postage?                                                                                         Ask

Source: OIG Interview Results

  Without established procedures, specific guidelines, and training on identifying and
  collecting insufficient postage on IBI Priority Mail®, shortpaid postage can go
  undetected and uncollected and the Postal Service is at added risk of significant
  revenue loss and fraud. Based on ODIS–RPW data, the Postal Service incurred $41.4
  million in unrecoverable revenue loss from shortpaid and unpaid postage on IBI Priority
  Mail for FY 2007 through FY 2008, quarter 2 (see Table 3).

               Table 3. Shortpaid Revenue – IBI Priority Mail (XxxxXxxxxxx) 21
                                                        Shortpaid
                                  Period                 Revenue
                        FY 2007
                        Q1                                $4,988,232
                        Q2                                 4,701,727
                        Q3                                 7,035,512
                        Q4                                 7,694,212
                         Total FY 2007                   $24,419,683
                        FY 2008
                        Q1                                $8,744,047
                        Q2                                 8,248,971
                         Total FY 2008, Q1 – Q2          $16,993,018

                           Total FY 2007 through
                            FY 2008, Q2                                $41,412,70122
                         Source: ODIS-RPW

  We also project the Postal Service could prevent revenue losses totaling $55.2 million
  over a period of 2 years if management implements controls to detect and collect
  shortpaid and unpaid postage on IBI Priority Mail.

  20
     This question was not asked of any interviewees who responded “No” to the question "Are employees assigned to
  isolate and handle shortpaid Priority Mail mailpieces?”
  21
     Excludes Click-N-Ship® mail.
  22
     Overpaid revenue for IBI Priority Mail (xxxxxxxxxxx) was $29,827,970 for the same period.


                                                         11
Shortpaid Postage – Information-Based                                                        MS-AR-09-001
 Indicia Priority Mail


                         APPENDIX C: MANAGEMENT’S COMMENTS23




23
   We issued a separate draft report on shortpaid Parcel Post mail to the Vice President, Ground Shipping, containing
essentially the same findings and recommendations. Management combined its responses to both reports.
Therefore, management's response mentions both Priority mail and Parcel Post mail.


                                                         12
Shortpaid Postage – Information-Based        MS-AR-09-001
 Indicia Priority Mail




                                        13
